                                 CLOSEOUT FOR M99050027

       We were informed of an allegation that an investigator' named in an NSF equipment
award2 was denied usage of the equipment. We reviewed .the proposal and award
documents, and materials gathered by the NSF program office3 in a site visit. The
evidence showed that the investigator was named in the proposal, was a member of a team
proposed to use the equipment, and participated in the site visit presentation.

        In discussions with the program officer, we learned NSF expects individuals named
in the proposal to have access to the equipment, and that it would be reasonable to establish
a usage policy to address competing demands for it. We sought information from one
other individual4 named in the proposal because this person was believed to be
knowledgeable about how the equipment was shared. This investigator told us that he
believed the equipment was generally available for use. He said that there might have been
some difficulty early on in establishing how the equipment would be shared, but that he had
not heard any direct complaints about equitable access.

        We found no corroborating evidence that the equipment had been denied to either of
the investigators named in the proposal. Although the first investigator may have had some
difficulty getting access to the equipment, we found no indication individuals were
inappropriatelylunfairly denied access. We found insufficient substance to process this
allegation.

         This inquiry is closed and no further actions will be taken.


cc: Integrity, IG




' (footnote redacted)
 (redacted) was awarded to (redacted). The $599,430 award supported the purchase of a (redacted).
 The NSF program officer is (redacted) in the (redacted) in the (redacted).
 (redacted), a member of the (redacted) team, was named in the proposal and site visit materials.


                                             Page 1 of 1                                       M99-27
